<html>
<title> - U.S. NUCLEAR WEAPONS POLICY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-73]
 
                      U.S. NUCLEAR WEAPONS POLICY

                               __________

                                HEARING

                               BEFORE THE

                     STRATEGIC FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 18, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                     U.S. GOVERNMENT PRINTING OFFICE
37-955 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                     STRATEGIC FORCES SUBCOMMITTEE

                ELLEN O. TAUSCHER, California, Chairman
JOHN SPRATT, South Carolina          TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               TRENT FRANKS, Arizona
RICK LARSEN, Washington              MAC THORNBERRY, Texas
JIM COOPER, Tennessee                MICHAEL TURNER, Ohio
HANK JOHNSON, Georgia                MIKE ROGERS, Alabama
DAVID LOEBSACK, Iowa
                 Rudy Barnes, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, July 18, 2007, U.S. Nuclear Weapons Policy............     1

Appendix:

Wednesday, July 18, 2007.........................................    29
                              ----------                              

                        WEDNESDAY, JULY 18, 2007
                      U.S. NUCLEAR WEAPONS POLICY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Tauscher, Hon. Ellen O., a Representative from California, 
  Chairman, Strategic Forces Subcommittee........................     1
Thornberry, Hon. Mac, a Representative from Texas, Strategic 
  Forces Subcommittee............................................     3

                               WITNESSES

Drell, Dr. Sidney D., Professor Emeritus, Stanford Linear 
  Accelerator Center, Stanford University........................     7
Payne, Dr. Keith B., Professor and Department Head, Graduate 
  Department of Defense and Strategic Studies, Missouri State 
  University.....................................................    11
Perry, Dr. William J., Co-Director, Preventive Defense Project, 
  Center for International Security Cooperation, Stanford 
  University.....................................................     4

                                APPENDIX

Prepared Statements:

    Drell, Dr. Sidney D..........................................    46
    Everett, Hon. Terry..........................................    33
    Payne, Dr. Keith B...........................................    53
    Perry, Dr. William J.........................................    40

Documents Submitted for the Record:

    The Challenge of Nuclear Weapons by Dr. Sidney D. Drell......    63

Questions and Answers Submitted for the Record:

    Ms. Tauscher.................................................    71
    Mr. Thornberry...............................................    74
                      U.S. NUCLEAR WEAPONS POLICY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                             Strategic Forces Subcommittee,
                          Washington, DC, Wednesday, July 18, 2007.
    The subcommittee met, pursuant to call, at 2:00 p.m. in 
room 2212, Rayburn House Office Building, Hon. Ellen O. 
Tauscher (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELLEN O. TAUSCHER, A REPRESENTATIVE 
    FROM CALIFORNIA, CHAIRMAN, STRATEGIC FORCES SUBCOMMITTEE

    Ms. Tauscher. Good afternoon. This hearing of the Strategic 
Forces Subcommittee will come to order. The purpose of today's 
hearing is to examine the United States' nuclear weapons policy 
and discuss our options regarding the future size and 
composition of the U.S. nuclear weapons stockpile. Led by this 
subcommittee, the House Armed Services Committee has called for 
a vigorous and open debate on the future direction of the 
United States strategic posture and a fresh examination of our 
nuclear weapons policy in particular.
    In the National Defense Authorization Act for Fiscal Year 
2008, which was approved by the House on May 17th, we call for 
the establishment of a congressionally appointed, bipartisan 
commission to analyze and make recommendations on the United 
States' strategic posture. This commission is designed to both 
foster and frame the debate we believe is needed. We fully 
intend that Congress participate in this debate, and this 
hearing is part of that process.
    So I am very delighted to welcome our distinguished panel 
of witnesses to the subcommittee today: Dr. William Perry, 
former Secretary of Defense and current co-director of the 
Preventive Defense Project at the Center for International 
Security Cooperation at Stanford University; Dr. Sidney Drell, 
professor and deputy director emeritus at the Stanford Linear 
Accelerator Center; and Dr. Keith Payne, a principal architect 
of the most recent Nuclear Posture Review (NPR) and current 
chair of the Department of Defense and Strategic Studies at 
Missouri State University.
    I want to sincerely thank each of our witnesses for 
appearing before the subcommittee today. Each of you brings a 
wealth of experience and expertise to this subject, which could 
not be more important or more timely.
    What the United States does with its nuclear weapons and 
how we do it is closely linked to our ability to dissuade other 
nations around the world from pursuing the deadliest of all 
weapons and our efforts to stem the proliferation of nuclear 
weapons technology.
    We have no higher security imperative than that. To be 
sure, other nations will continue to make their own decisions 
about whether to pursue nuclear weapons for many reasons. But 
how we manage and maintain our nuclear arsenal directly impacts 
how credible we can be when pressing for global non-
proliferation. And we have committed under Article VI of the 
Non-Proliferation Treaty (NPT) to work in good faith toward 
nuclear disarmament.
    So how do we craft a nuclear weapons strategy that meets 
this challenge? The most recent Nuclear Posture Review is 
almost six years old. It calls for a new triad which promised 
to de-emphasize nuclear weapons, but that promise was 
undermined by its call for new types of nuclear weapons, and 
its endorsement of preemption raised more questions than it 
answered.
    The Bush Administration has opposed arms control treaties, 
rejected the Comprehensive Test Ban Treaty (CTBT) and 
negotiated an open-ended Moscow Treaty which allows for 
reductions in deployed nuclear weapons, but it does not achieve 
those with any significant reductions.
    In this context, we find ourselves at a critical juncture 
regarding our strategic posture. The human capital and the 
physical infrastructure we rely on to keep our nuclear weapons 
safe, secure and reliable is aging, and the Administration's 
nuclear weapons experts tell us that, in the coming years, the 
Life-Extension Programs (LEPs) currently used to maintain our 
legacy weapons will no longer be cost-effective.
    The Bush Administration has offered two major proposals to 
address these emerging challenges. The first, the Reliable 
Replacement Warhead (RRW) Program is designed to modernize our 
weapons stockpile, and Complex 2030 is a modernization program 
designed to transform the nuclear weapons complex that supports 
that stockpile.
    These far-reaching proposals represent the National Nuclear 
Security Administration's (NNSA) preferred future investment 
and policy strategy, but they also raise fundamental questions: 
How many nuclear weapons does the United States need to meet 
the President's test of ``the smallest number consistent with 
the United States' national security interests''? What sort of 
weapons complex do we need to ensure the safety and reliability 
of these weapons? How large should our stock of reserve weapons 
be and how much would development of the RRW affect that 
answer? Is it possible to develop RRW without sending a signal 
to the rest of the world that we are investing in a new 
generation of nuclear weapons?
    I have called for extending the Strategic Arms Reduction 
Treaty (START) and for negotiating a new legally binding 
agreement that achieves greater, verifiable reductions in the 
United States' and Russia's nuclear forces, measures that the 
Bush Administration has not endorsed.
    In this spirit, as the Non-Proliferation Treaty is under 
assault, and as this Administration rejects the CTBT and does 
not negotiate a new Fissile Material Cutoff Treaty (FMCT), what 
is the role of arms control treaties in today's world, and how 
can they be made more effective?
    This is not a rhetorical question. Iran is on course to 
develop a military nuclear capability. I believe a future step 
by Iran could be to expel the International Atomic Energy 
Agency (IAEA) inspectors and withdraw from the Non-
Proliferation Treaty. Instead of waiting for Iran to do this on 
its own terms, I believe we need to rally all of our allies 
around and strengthen the NPT and make it clear that we believe 
that there are explicit penalties for leaving the treaty.
    Gentlemen, I would like your thoughts on this matter. 
Answering these questions is as critical to our national 
security as any issue before this committee or the Congress, 
and I look forward to a good discussion today.
    Our Ranking Member, Mr. Everett of Alabama, is busy with a 
markup in another committee and cannot be here. I understand he 
has a statement that he would like to enter into the record, 
and without objection, it will be made part of the record.
    [The prepared statement of Mr. Everett can be found in the 
Appendix on page 33.]
    Now let me welcome my good friend and colleague, Mr. 
Thornberry of Texas, who will sit in for Mr. Everett for any 
comments that he may have.
    Mr. Thornberry, you are recognized for five minutes.

STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM TEXAS, 
                 STRATEGIC FORCES SUBCOMMITTEE

    Mr. Thornberry. Thank you, Madam Chairman, and I appreciate 
you making Mr. Everett's statement part of the record. I also 
appreciate this hearing and the questions that you pose.
    I think it is true, as all the witnesses agree, that a lot 
has changed in the world and in our security environment since 
our current nuclear stockpile was conceived and deployed. I 
think it may also be true that we have gotten to the point 
where we may take our nuclear weapons for granted, or maybe to 
put it better, we take the nuclear deterrence that comes from 
our current stockpile somewhat for granted. In fact, I think it 
is a little bit hard for us to think about what the world would 
be like if we did not have the American nuclear deterrent. 
Would other countries who rely on our nuclear deterrent be more 
inclined to have nuclear weapons of their own? Would others be 
more adventurous, or would peace and harmony break out 
everywhere if the American nuclear stockpile were not credible?
    I think these witnesses, and there are others that I think 
have interesting opinions that we ought to consider, but I 
think it is very important for this subcommittee and for 
Congress to ask and listen to answers of questions like you 
have posed.
    For example, what is the role of nuclear deterrence in 
today's world and in the future? And second, what sort of 
characteristics would fulfill that role? I think sometimes we 
get locked into the characteristics of the Cold War stockpile 
without thinking more broadly what sort of characteristics make 
the most sense for our security? And then you do have to go to 
questions like, can you achieve those characteristics without 
testing? How would they be deployed? What sort of complex do 
you need to produce those sorts of weapons? All good questions. 
And I would add another: What happens if we are wrong in our 
assumptions?
    Madam Chair, we may have some differences on this committee 
about how much of our security we are willing to stake on 
pieces of parchment, but I think there is no doubt that it is 
our obligation to ask these clear questions of nuclear 
deterrence and where they fit into the broader security 
interests of the United States.
    So I want to join you in welcoming, I think, all of these 
witnesses back, for those of us who have been here a few years, 
and look forward to their testimony.
    Ms. Tauscher. I thank Mr. Thornberry for his comments. We 
would like to make it clear that each of our guests today, 
witnesses today have submitted for the record extensive 
statements, and if you gentlemen could each summarize to the 
extent, five, seven minutes, that would be great, because I 
think what we really are looking for is for the opportunity for 
members to engage you in questions.
    So with unanimous consent, we will put your statements in 
the record. And if we could begin with Dr. Perry.
    Welcome again, Dr. Perry.

  STATEMENT OF DR. WILLIAM J. PERRY, CO-DIRECTOR, PREVENTIVE 
DEFENSE PROJECT, CENTER FOR INTERNATIONAL SECURITY COOPERATION, 
                      STANFORD UNIVERSITY

    Dr. Perry. Thank you very much, Madam Chairman.
    Our government probably today is focused on Iraq for quite 
understandable reasons. But I believe the greatest danger our 
Nation faces is that a terror group will detonate a nuclear 
bomb in one of our cities. This would be the worse catastrophe 
of our time. Just one primitive nuclear bomb based on the 
design of the Hiroshima bomb could result in more than a 
100,000 deaths, and there could be more than one bomb. The 
direct economic losses from the detonation would be hundreds of 
billions of dollars, but the indirect economic impact would be 
even greater as worldwide financial markets collapse in a way 
that would make the market setback after 9/11 seem mild. The 
social and political effects are incalculable, especially if 
the nuclear bomb were to be detonated in Washington, disabling 
a significant part of our government.
    So almost 20 years after the ending of the Cold War, we 
still have a dark nuclear cloud hanging over our heads. As the 
Cold War was coming to an end, the Presidents of the United 
States and the Soviet Union, President Reagan and President 
Gorbachev, confronted this danger to civilization and sought to 
end it. They met in 1986 at Reykjavik and engaged in serious 
discussions on how to end the danger by bringing about an 
elimination of nuclear weapons. In the end, the two Presidents 
were not able to reach agreement on the major steps they were 
discussing, and the Reykjavik meeting is considered by many to 
have been a failure.
    Last September, on the 20th anniversary of the Reykjavik 
summit, George Shultz hosted a conference at Stanford to see 
what lessons we could learn from that remarkable meeting where 
Presidents Reagan and Gorbachev seriously discussed eliminating 
not only nuclear weapons, but also their delivery means. At our 
Stanford meeting, at which both Dr. Drell and I participated, 
we concluded that the nuclear vision pursued by Reagan and 
Gorbachev at Reykjavik was valid and should be revived.
    We put together the main ideas that came out of that 
meeting in an op-ed published by The Wall Street Journal. This 
op-ed was signed by George Shultz, Sam Nunn, Henry Kissinger 
and myself, all of whom played a major role in sustaining our 
nuclear programs during the Cold War. It was followed in a few 
days by another op-ed from President Gorbachev, who essentially 
endorsed the views we had expressed.
    Of course, we understood that it might be many decades 
before that nuclear vision might be realized. And in the 
meantime, until nuclear weapons are eliminated, we should focus 
on steps to reduce their danger.
    So we outlined in our op-ed a set of steps that could be 
taken now that would have the practical effect of greatly 
reducing that risk. In my written testimony, I listed those in 
summary steps. I call those to your attention.
    I believe that our best hope of dealing with the danger of 
nuclear weapons lies in the policy for the United States that 
embraces the long-term vision, coupled with the short-term 
programs for systematically moving toward that vision.
    The long-term vision could be a vision that inspired Reagan 
and Gorbachev at Reijkavik, and the short term could be the 
ones sketched out in our op-ed piece.
    We will follow up this op-ed with another conference at 
Stanford in October where we work out the details of how to 
implement these short-term programs. But even before we 
undertake that task, it is clear that the programs now underway 
in the United States are inadequate to protect us from this 
evident danger.
    The centerpiece of our Government's strategy for dealing 
with a nuclear attack is the National Missile Defense System 
now being installed in Alaska and being considered for 
deployment in central Europe. But terrorists would not use a 
ballistic missile to deliver their bomb; they would use a 
freighter or a truck.
    So it seems all too clear that we cannot deal with the 
danger of nuclear terrorism either by defense or, for that 
matter, by deterrence, which is not likely to be effective 
against a terror organization like al Qaeda.
    But there is some good news in this otherwise grim picture. 
No terror group is able to build a nuclear bomb from scratch; 
only a nation can manage a project of that complexity. For a 
terror group to get a nuclear bomb, they must buy or steal one 
from a nuclear power or, with more difficulty, put one together 
from the plutonium or highly enriched uranium that they acquire 
from a nuclear power. So the key to success is to keep them 
from getting the bomb or the fissile material in the first 
place.
    The Proliferation Security Initiative (PSI) was established 
a few years ago as a cooperative international program to 
interdict nuclear weapons or material being illegally 
transferred. This is a useful program in many respects, but we 
should never--we should never believe it is likely to be 
successful in preventing a nuclear power from smuggling a bomb 
to a terror group. A so-called tactical bomb could be put in a 
suitcase. The plutonium needed to make a bomb as destructive as 
the Hiroshima bomb is about the size of a grapefruit. There is 
no interdiction system that exists or for that matter that is 
conceivable that would have a good probability of stopping a 
clever smuggler from transferring either of these.
    Our Government's near-term strategy should be focused on 
programs designed to accomplish two objectives: First, reducing 
and protecting existing nuclear arsenals; and, second, taking 
all feasible actions to keep new arsenals from being created. 
Both of these objectives require a concerted effort on the part 
of our Government, but neither can be fully successful without 
the cooperation of many other governments, most importantly, 
the cooperation of all of the other nuclear powers.
    During my period as Secretary of Defense, I made reducing 
and protecting existing nuclear arsenals my top priority, using 
a program that had been inspired by two visionary Senators, Sam 
Nunn and Dick Lugar. Our greatest success with the Nunn-Lugar 
program was getting Ukraine, Kazakhstan and Belarus to give up 
all of their nuclear weapons. And at the time we started this 
program, Ukraine was the third largest nuclear power in the 
world, in fact, with more nuclear weapons than England, France 
and China combined.
    At the same time we did this, we took actions in 
cooperation with the Russian Government to substantially 
improve the safeguards on nuclear weapons, material, and 
technology. I fully believe that it should be our top priority 
to strengthen the Nunn-Lugar program and extend it to include 
all nuclear powers, and to deal with fissile materials 
associated with commercial power reactors.
    The second challenge is to keep new nuclear programs from 
being created. During the last six years, North Korea and Iran 
have substantially advanced their nuclear weapon programs, even 
though the Administration has stated that they considered such 
programs unacceptable.
    Beyond North Korea and Iran, there are a dozen countries 
that have the capability to build nuclear weapons in a year or 
two. These nations have voluntarily joined the Nuclear Non-
Proliferation Treaty and renounced the building of nuclear 
weapons.
    But this Non-Proliferation Treaty is threatened today by 
the emergence of new nuclear powers, namely India and Pakistan, 
and would be entirely undermined if North Korea and Iran are 
free to build nuclear arsenals. But it also could be undermined 
by the two major nuclear powers, Russia and the United States. 
Russia has declared that, because of the weakness of its 
conventional military forces and because of the American 
deployment of the National Missile Defense System in Europe, it 
must depend more on nuclear weapons. They have renounced their 
previously stated no-first-use policy. They have re-MIRVed 
their old Intercontinental Ballistic Missiles (ICBMs); and they 
are undertaking the development of new ICBMS and maintain a 
large stock of tactical nuclear weapons.
    The Bush Administration, for its parts, has requested 
congressional authority to develop new nuclear weapons, most 
notably the so-called Bunker Buster, and has requested the 
authority to build a Reliable Replacement Warhead.
    Any attempt to prevent a hemorrhage of proliferation 
requires Russia and the United States to show leadership in 
complying with the requirement of the Non-Proliferation Treaty 
for the nuclear powers to move toward nuclear disarmament. Our 
op-ed was written in that spirit.
    One specific question faced by this committee is whether to 
authorize the Reliable Replacement Warhead program. There are 
two valid arguments for proceeding with that program: first, 
that it will maintain the capability of our nuclear weapon 
designers; and that it allows the design of a warhead that 
cannot be detonated by a terror group even if they were able to 
get one. A countervailing argument is that if the United States 
proceeds to develop new nuclear warheads, it will undermine our 
ability to lead the international community in the fight 
against proliferation.
    My best subjective judgment at this time is that the 
proliferation argument outweighs the other two, but I 
understand we live in a dangerous and uncertain world, and I 
firmly believe that we have to maintain an unequivocal 
deterrent capability for the foreseeable future. So my judgment 
would be different if I thought that our present nuclear force 
could not be maintained to provide that capability for many 
decades in the future.
    In sum, I believe that we could defer for a number of years 
the development of a Reliable Replacement Warhead. I have no 
doubt that this would put us in a stronger position to lead the 
international community in the continuing battle against 
nuclear proliferation, which is an eminent danger to all of us. 
Most importantly, I believe that our best protection against 
nuclear terrorism is robust programs that keep nuclear weapons 
and fissile material out of the hands of the terrorists.
    Thank you, Madam Chairman.
    [The prepared statement of Dr. Perry can be found in the 
Appendix on page 40.]
    Ms. Tauscher. Thank you, Dr. Perry.
    Dr. Drell.

STATEMENT OF DR. SIDNEY D. DRELL, PROFESSOR EMERITUS, STANFORD 
         LINEAR ACCELERATOR CENTER, STANFORD UNIVERSITY

    Dr. Drell. Thank you, Madam Chairman, for this opportunity 
to testify on this important subject.
    The existing international regime, grounded in the Non-
Proliferation Treaty for preventing the spread of nuclear 
weapons, is in serious danger. The inevitable spread of 
technology creates the danger of more states with nuclear arms 
and fissile material, which in turn provides more opportunities 
for theft or sale of this material into dangerous hands, 
thereby increasing the risk that nuclear weapons will be used.
    Beyond North Korea and Iran, more than 40 nations have 
already taken substantial steps forward in nuclear technology. 
Even more have indicated interest in developing such technology 
for civilian power. And once you can enrich uranium for a 
civilian power reactor, you are well on your way to nuclear 
power.
    If we continue the present course, the United States and 
the world will soon be compelled to enter a new nuclear era 
that will be more precarious and economically costly than was 
the Cold War deterrence. Those concerns provide the context for 
my views on the policy and programs on strategic nuclear 
weapons that this country should follow, as well as on the RRW.
    My longer statement on that is in the record. As well as I 
would like to submit an article that respectfully appeared on 
the subject in full detail.
    [The information referred to can be found in the Appendix 
on page 63.]
    Ms. Tauscher. Without objection it will be submitted in the 
record.
    Dr. Drell. During the Cold War, nuclear weapons were 
essential to maintaining international security because they 
were a means of deterrence. Sixteen years ago, the Cold War 
ended with the demise of the Soviet Union. Deterrence continues 
to be a relevant consideration for many states with regard to 
threats from other states, but reliance on nuclear weapons for 
this purpose is becoming increasingly hazardous and 
decreasingly effective as the prospect of nuclear proliferation 
grows increasingly ominous. The time is overdue for a fresh 
look at the role of nuclear weapons in U.S. defense planning.
    It should be clear that I am saying different words from 
Secretary Bill Perry, my friend, but I am agreeing on 
everything he said.
    As stated in the joint declaration of Presidents Bush and 
Putin in November 2001, quote, ``The United States and Russia 
have overcome the legacy of the Cold War.'' Neither country 
regards the other as an enemy or threat. They emphasized that 
the two nations are allies working together against the spread 
of nuclear weapons.
    In light of this official change in policy, I have trouble 
understanding why we are still planning, or certainly seem to 
be planning based upon the stated documents under the Treaty of 
Moscow negotiated in 2002, to have 1,700 to 2,200 strategic 
nuclear warheads deployed 5 years in the future from now, 
supplemented by several thousand more reserves in the 
stockpile. What are these multi-thousand warheads for?
    I argue in my testimony, that was guided by the 2001 
Nuclear Posture Review that you referred to, Madam Chairman, a 
U.S. strategic force of some 500 operationally deployed 
strategic weapons would be more than adequate, strategic 
warheads. This number allows for force readiness concerns, 
multiple targeting where needed, the possibility of very sudden 
and unexpected surprises, from Russia, for example, a breakdown 
in military command and control, or for whatever reason.
    In order to provide a considerable degree of flexibility 
and a fluid security environment as present and which the 
Nuclear Posture Review calls for, the 500 operationally 
deployed strategic warheads would be augmented by a responsive 
force. As we look ahead a few years into the future that 
responsive force should have on the order of 400 to 500 
warheads, a number comparable to the operationally deployed 
ones.
    In sizing our nuclear forces for the future, the U.S. and 
Russia, who presently possess more than 90 percent of the 
worldwide total of nuclear weapons, will have to enter into 
multilateral negotiations with other nuclear weapon states as 
we make significant force reductions. These numbers that I have 
proposed above assume that such negotiations are successful in 
establishing a nuclear-restrained regime, and of course, Russia 
in their reductions follows along our path.
    As Russia and the United States move further away from the 
nuclear deterrence trap in which we are still ensnared, the 
sizing of our stockpiles would depend on other concerns and 
could be further reduced and, in time, perhaps a decade, 
nuclear deterrence might be maintained, and I would hope so, 
entirely with the responsive force alone. That might be on the 
order of 500 now initially proposed to be in the operationally 
deployed force.
    These arguments are worked out in more detail in an article 
written several years ago with Ambassador Goodby which I have 
previously submitted a copy of.
    These actions, let me summarize this part, these actions by 
the two powers that still possess more than 90 percent of the 
world's nuclear warheads would be a powerful stimulus toward 
preserving and further strengthening the non-proliferation 
regime that is presently under severe strain, particularly but 
not exclusively, from North Korea and Iran.
    In order to give an impetus to prospects for achieving 
further reductions in these forces, the United States and 
Russia will have to negotiate an extension or revision of the 
formal provisions for verifying such measures of reduction by 
extending or revising, as I say, the provisions of the existing 
START Treaty that will expire in December 2009. There is little 
time for delay in getting started, and I strongly endorse your 
call for getting down to business on that one, Madam Chair.
    Turning to the RRW. Beyond numerical reductions in our 
nuclear forces, measures of restraint by the United States in 
managing and modernizing our nuclear arsenal will also be 
important to achieving success in meeting challenges to the 
non-proliferation regime. If the United States, the strongest 
Nation the world, were to conclude that it cannot protect our 
vital interests without relying on new nuclear weapons for new 
military missions, it would be a clear signal to other nations 
that nuclear weapons are valuable, even necessary for their 
security. It would also be counter to their repeated urging 
that the nuclear states reduce reliance on the weapons, reduce 
numbers of these weapons and work toward ratifying the 
Comprehensive Test Ban Treaty. Indeed, that was a condition at 
the United Nations (UN) in 1995, to get most of the nations all 
to sign on to the extension of the Non-Proliferation Treaty.
    This brings me to the RRW then, whose stated purpose is 
both to transform the nuclear infrastructure, that is Stockpile 
2030, and the nuclear weapons themselves so the U.S. can 
maintain its alleged long-term high confidence in our arsenal 
as it reduces its size.
    The part of the RRW program directed at transforming the 
nuclear infrastructure is not controversial. The infrastructure 
needs attention. Some of it dates back to World War II. If you 
visited, you would see how obviously it needs attention.
    However, in planning a modernized nuclear complex that will 
be more efficient, flexible and environmentally friendly to 
maintain, we need to decide first how big an arsenal do we 
think we need; 5,000 or 500, for example. This will require 
developing an updated plan for the future U.S. nuclear policy 
and force posture that this committee has called for.
    The more difficult and contentious part of the RRW program 
is the transformation of the current stockpile with newly 
designed warheads that will increase long-term reliability, 
safety and use control. It is a daunting challenge to achieve 
these goals without resuming underground nuclear explosive 
tests in order to certify the newly-designed warheads for 
deployment. Such a restriction on no testing legislated by 
Congress is important for our Non-Proliferation Treaty 
interests, as Secretary Perry has amply stated.
    We are faced now with a key question then: Can we achieve 
the goals of the RRW program without underground explosive 
testing? Recall that in developing our modern arsenal, the U.S. 
has performed more than 1,000 tests over 50 years. How 
confident could we be in certifying a new weapon that doesn't 
have such a strong test pedigree?
    The ongoing vigorous and highly successful Stockpile 
Stewardship and Life-Extension Programs have established that 
the current U.S. stockpile, in my judgment, of nuclear weapons 
is safe and reliable and does not show significant evidence of 
aging. That is the basis for my technical views of what I am 
talking about.
    Those programs do include important improvements in non-
nuclear components events, for example, continually improving 
the safety of the arming, fusing, and firing system and 
enhancing performance margins. That has enabled the lab 
directors to certify our stockpile without testing for more 
than a decade.
    I don't thing we presently know the answer to the key 
question I pose. We are not technically certain what aspects of 
an RRW program can be achieved without nuclear explosion 
testing. I do believe it is a worthwhile question to try to 
answer, and there is a sensible approach to it which would 
follow three elements.
    One, the RRW needs to proceed carefully with research on 
design modifications before moving ahead to consider 
development and manufacture of nuclear warheads. In other 
words, it has to stay at the moment in phase 2A. Detailed 
analyses subjected to independent scrutiny and rigorous peer 
review will be needed to determine whether it is possible to 
build confidence and a strong technical consensus that the 
proposed changes are mutually compatible with our security 
needs and that they will be able to give us higher confidence 
in these changed designs, untested, than we have presently in 
the reliability and confidence of our present stockpile.
    Second, we must recognize that implementing design changes 
is not time urgent. The legacy stockpile is strong. The pace of 
the work should not consume human and budgetary resources to 
the extent of savaging the important and highly successful 
Stockpile Stewardship and Life-Extension Programs that are 
going on now. It will take more money if you want to consider 
doing that.
    Third, the government needs to be clear about the limited 
scope of the RRW program to avoid potentially harmful impacts 
on global non-proliferation efforts that Bill Perry has already 
talked about, which I strongly endorse, and we can think about 
the long-term future where maybe with Reagan and Gorbachev, we 
can see a world free of nuclear weapons.
    [The prepared statement of Dr. Drell can be found in the 
Appendix on page 46.]
    Ms. Tauscher. Thank you, Dr. Drell.
    Welcome, Dr. Payne. We are happy to hear from you.

STATEMENT OF DR. KEITH B. PAYNE, PROFESSOR AND DEPARTMENT HEAD, 
GRADUATE DEPARTMENT OF DEFENSE AND STRATEGIC STUDIES, MISSOURI 
                        STATE UNIVERSITY

    Dr. Payne. It is an honor to be here. Thank you for the 
invitation.
    The rise of hostile rogue states, new terrorist threats, 
the proliferation of weapons of mass destruction and missile 
technology have all highlighted our need for an effective 
deterrent strategy in this post-Cold War environment. That 
strategy in principle should help us to identify the preferred 
roles and characteristics for our strategic forces.
    Unfortunately, most of what we believed was true during the 
Cold War is now misleading because international conditions 
have changed so dramatically. The painful truth is now no one 
truly knows what constitutes a stabilizing force structure or 
whether or how deterrence will work across the wide spectrum of 
contrary opponents, stakes and circumstances we may confront.
    This conclusion does not suggest that we discard 
deterrence--far from it. It does, however, explain how our Cold 
War strategy of deterrence based on a mutual balance of terror 
must be reconsidered in toto. One part of the answer to our 
current strategy question of how to deter is tailored 
intelligence.
    To understand how best to deter in any contingency, we need 
first and foremost to understand the specific opponent's 
mindset and behavior style and the different ways opponents can 
perceive and respond to our threats. Deterrence is now first 
and foremost a matter of intelligence. It requires a much 
broader dedicated intelligence effort for this purpose than was 
the case in past decades. This is true whether we hope to deter 
the leadership of a state or a terrorist organization.
    I should note in this regard that I have frequently heard 
the assertion ``terrorists must be undeterrable,'' which is 
mistaken. There is considerable historical evidence that 
terrorists may be deterred and have been deterred in the past, 
depending on the specifics of the opponent, the circumstance, 
and how much we knew about them.
    It is important to understand what types of U.S. deterrent 
threats will be best suited to deterring a particular opponent 
in a particular circumstance, for a particular purpose. In some 
cases, non-military approaches to deterrence will be best, in 
other words, non-nuclear force options are likely to be 
adequate and advantageous, and in still other cases, nuclear 
threat options may be necessary to deter.
    Each type of capability is likely to have a role in 
deterring attacks. To reject any of these capabilities at this 
point as unnecessary for deterrence is to presume knowledge 
about how foreign leaders will think and how deterrence will 
function across time and place that is wholly unsupportable.
    Some see an incongruity in the U.S. maintaining a nuclear 
arsenal for deterrence while simultaneously advocating nuclear 
non-proliferation. In reality, the U.S. deployment of nuclear 
capabilities makes an essential contribution to nuclear non-
proliferation. This positive linkage may be counterintuitive, 
but it is unquestionable.
    Our extended nuclear deterrent is perhaps the most 
important and the least recognized nuclear non-proliferation 
tool in existence. How so? It is on the basis of the U.S. 
nuclear umbrella that allied countries, such as Japan, have 
chosen to remain non-nuclear. The continued credibility of our 
nuclear umbrella is critical to their decisions to remain non-
nuclear, and their decisions to remain non-nuclear are critical 
to non-proliferation worldwide.
    The contemporary environment is increasingly challenging 
for our allies in this regard. North Korean and Iranian nuclear 
aspirations for nuclear weapons pose an unprecedented nuclear 
threat to our allies, including those traditionally covered by 
the U.S. nuclear umbrella. Their responses, as we have seen to 
date, to these emerging nuclear threats have highlighted once 
again the critical role that the U.S. extended nuclear 
deterrent plays in non-proliferation.
    It is in this context that the Reliable Replacement Warhead 
(RRW), is of potential value, I believe, for the following 
basic reasons. It may contribute to sustaining a U.S. nuclear 
arsenal with increased warhead safety and security measures 
without testing. It could help preserve the special skills and 
expertise necessary to maintain the U.S. capability to develop 
and produce nuclear weapons and to modernize portions of the 
industrial infrastructure necessary for that purpose. And RRW 
could contribute to the prudent reduction of the nuclear 
stockpile.
    Because the retention of U.S. nuclear capabilities is 
important for U.S. deterrence, and extended deterrence--and 
therefore non-proliferation--each of these possible benefits of 
RRW is potentially important. The Bush Administration's 2001 
Nuclear Posture Review, the NPR, emphasized the need for a much 
broader range of deterrent options than those we inherited from 
the Cold War, particularly including non-nuclear options. 
Unfortunately, here we are almost six years later and nuclear-
armed missiles remain the only Prompt U.S. Global Strike 
options available. I agree strongly with General Cartwright 
that it is important to move forward on a conventional 
capability for Prompt Global Strike (PGS), conventional Trident 
being the near-term option.
    The contemporary uncertainty of deterrence compels a review 
of our Cold War strategy choices with regard to the role and 
value of active and passive defenses, such as air defense, 
civil defense and ballistic missile defense (BMD). It may be 
recalled that it was the Nixon Administration that initiated 
the strategy of intentional U.S. societal vulnerability to 
virtually any strategic threat. The Nixon Administration did 
this in the self-expressed deference to a balance of terror 
strategy with the Soviet Union. The strategy choices have 
consequences, as we learned on 9/11 when, according to reports, 
we could muster at most a handful of interceptors, two of which 
apparently were unarmed.
    That strategy, and its subsequent perpetuation, led to the 
continued limitation or further degradation of U.S. air 
defense, civil defense and ballistic missile defense throughout 
the remainder of the Cold War years and after, the fruit of 
which we saw at 9/11.
    In the contemporary environment of multiple WMD threats and 
deterrence uncertainty, it is critical that the U.S. approach 
to deterrence strategy include rather than eschew defensive 
capabilities. A balance of terror will not provide predictable 
protection against perplexing leaders, such as North Korea's 
Kim Jong Il or Iran's President Ahmadinejad.
    Deterrence can and likely will fail unpredictably in the 
future as it has in the past, and in those instances, it will 
be most important to limit damage to our society and to our 
economic infrastructure to the extent possible.
    Particularly apparent in this regard is the need to deploy 
regional and strategic missile defense capabilities that are 
sufficiently timely, adaptable and global to meet emerging 
missile threats. With regional rogue states moving toward 
nuclear weapons and missiles of increasing range and payload, 
layered missile defense, I believe, has become an essential 
element of U.S. post-Cold War strategy.
    In conclusion, the broad outlines of a U.S. post-Cold War 
deterrent strategy are apparent. They reflect both continuities 
and discontinuities from past strategies. Once we establish a 
political consensus on the hows and whys of U.S. post-Cold War 
strategy, we can pursue the development and deployment of our 
forces consistent with that strategy.
    Unfortunately, we have yet to establish a consensus on a 
post-Cold War deterrent strategy, and we need to make that a 
priority. Madam Chairman, I believe the commission you 
mentioned in our opening remarks could contribute significantly 
toward that goal. Thank you.
    [The prepared statement of Dr. Payne can be found in the 
Appendix on page 53.]
    Ms. Tauscher. Thank you, Dr. Payne.
    We have been informed that the House is currently debating 
the Labor, Health and Human Services and Education 
Appropriations bill. We expect we could be called for a very 
long series of votes imminently. I know that Dr. Perry has been 
on the Senate side most of the day, and Dr. Payne and Dr. Drell 
have both traveled.
    I would ask your indulgence if it would be possible, if we 
get called for votes soon, it would take us a minimum of 45 
minutes to do these votes. I would hope that you could stick 
around. This is a very important issue, and I ask your 
indulgence. We can make you comfortable in the meantime if we 
do get called soon.
    We are going to keep members to the five-minute rule, 
myself included. I have one opening question. Dr. Payne, I will 
take your last comment as a hint of where you are for our call 
for a strategic commission. The question is very simple. As you 
know, in the House-approved 2008 Defense Authorization bill we 
have called for a strategic commission to evaluate United 
States strategic posture for the future, including the role 
that nuclear weapons should play in the national security 
strategy.
    Dr. Drell, what do you think are the key questions the 
commission should focus on? And this will be a five-minute 
question. If you could be brief, I would appreciate it.
    Dr. Drell. You wanted my view of the commission?
    Ms. Tauscher. Yes.
    Dr. Drell. I think it is extremely important.
    Ms. Tauscher. What should they focus on?
    Dr. Drell. I think they should focus on what deterrence 
requires after the Cold War. With deterrence during the Cold 
War, we had huge forces for immediate attack. We now need to 
keep deterrence so we have some way to handle building crises 
if they come. I don't think that the fear of a first-strike 
exists today the way it did during the Cold War. I take 
seriously the document that President Bush and President Putin 
signed in 2001/2002 saying we are not Cold War enemies, 
literally, but we are allied against terrorism.
    I think that deterrence, assuming that the Russians 
implement their words the way we do, I think that having multi-
thousand warheads to be able to destroy an operating society is 
something I would like to think of as in the past.
    On the other hand, we have to have a hedge against a change 
in the Government or continuation of what seems to be at the 
moment a not very happy political relationship, and that is why 
I chose numbers like 500 operationally deployed, 500 reserve, 
looking at the key targets.
    So I think one has to look upon what is the deterrent 
posture we are working on for the future; how do we understand 
where Russia is going? That is the main thing, because we are 
between 90 and 95 percent.
    Then I think that the issue, I feel very strongly, is what 
actions can we take to make progress in the way we handle our 
forces and make progress toward freeing the world of nuclear 
weapons? I think President Reagan and President Gorbachev had 
it right. Reagan said these are terrible weapons, no good. They 
are going to kill us. We have to get rid of them. That man was 
a true nuclear abolitionist of the deepest sort.
    I think that given the fact of the spread of technology, 
the biggest worry we have is, building on what Secretary Perry 
said, the spread of these weapons. We have to now embellish the 
nuclear Non-Proliferation Treaty with the Proliferation 
Security Initiative, the additional protocols for inspection, 
and expanding Nunn-Lugar. Because somebody less reliable than 
we like to think, and using methods of suicidal terrorism to 
make almost mockery of the word deterrence, is the challenge we 
face.
    As long as we have massive nuclear arsenals, we are going 
to have that problem. So we have to ask, how do we take steps? 
By making significant reductions, as I said, by taking weapons 
off hair-trigger alert, by controlling the nuclear fuel 
supply--things that this country has proposed.
    How do we work our way out of the nuclear deterrence trap 
and toward that? To the extent that we can persuade other 
countries--I am not talking about only Iran or North Korea, I 
am talking about our allies with whom we are cooperating, 185 
nations in the world--to try to make the Non-Proliferation 
Treaty effective. They have demanded increasingly, and if you 
look at the record in 1995 of the renewal of the Non-
Proliferation Treaty and to the indefinite future, they demand 
that we honor Article VI of the NPT, that we ratify the 
Comprehensive Test Ban Treaty, certainly don't resume testing, 
and that we reduce reliance on these weapons. And if we want 
them to be serious partners in an effort to try and get a hold 
of this nuclear journey, we have to listen to them and take it 
seriously.
    Of course, it will help with some leverage in dealing with 
Iran and North Korea, I would think, if we say we are really 
serious about big reductions and reducing reliance and maybe 
even, I don't know when or how, we will get to that vision of a 
world free of nuclear weapons. I think those are what one has 
to now take a big look at the big picture.
    Ms. Tauscher. Dr. Payne, Dr. Perry, I will take your 
answers for the record if you don't mind because I want to get 
other members.
    Mr. Thornberry for five minutes.
    Mr. Thornberry. Thank you, Madam Chairman.
    Dr. Payne, I was struck in the introductory comments that 
Dr. Drell talked about the Bush-Putin agreement that we are no 
longer Cold War enemies and we can thus reduce tremendously the 
number of nuclear weapons we have. And yet Dr. Perry went on at 
some length about Russia taking steps in the opposite 
direction, having more reliance on nuclear weapons and so forth 
since that time. It tells me that Russia is making decisions 
based on what it considers its strategic interests are that are 
not particularly related to decisions we make.
    So would you comment on this question about whether other 
countries will necessarily follow our lead or whether--whether 
it is Russia, Iran or whoever--they look at their own 
situation, who their neighbors are, what their security 
environment is and make decisions on nuclear weapons on that 
basis?
    Dr. Payne. Sure, thank you, Congressman Thornberry. Both 
the comments in fact I believe are accurate, and that is that 
at the time of the Nuclear Posture Review early in the Bush 
Administration, there was no doubt that the goal was to have a 
new relationship with Russia, and that that new relationship 
would improve and blossom. That was the hope, and that was one 
of the guiding ideals behind what we did in that regard.
    I harken to add with some disappointment that, six years 
later, what we have seen on the part of the Russian Federation 
with regard to its programs and its plans and its development 
of nuclear weapons is not heartening in that regard. What we 
have seen is increased emphasis in Russian writings and in 
Russian development programs on nuclear weapons. Many possible 
reasons for that, but it certainly hasn't been what we hoped 
would be the case back at the beginning of the Administration.
    To the second part of the question, and that is, do 
countries essentially follow the U.S. lead? I believe, by and 
large, they don't. The notion that countries follow the U.S. 
lead in nuclear matters and that essentially they mimic what we 
do or don't do really is a carryover of what used to be called 
the action-reaction dynamic of the arms race. What we would do 
in the Cold War, the Soviets would follow, and so on and so 
forth.
    What happens is that same notion of what drives arms 
competition has now picked up and has been applied to the post-
Cold War period, so the current notion is that what we do, then 
many other countries will follow and mimic. I don't find 
virtually any historical precedent or evidence that supports 
that. What we do see is regional states want nuclear weapons 
for their own purposes. Very often it is unassociated with the 
United States. If it is associated with the United States by 
their own discussion, it is because they worry about U.S. 
conventional capabilities, not U.S. nuclear capabilities, per 
se.
    And so the notion that what the U.S. does with regard to 
its nuclear initiatives is going to drive proliferation in that 
regard is overstated. To the contrary, I believe that U.S. 
nuclear weapons that help support the extended nuclear 
deterrent can be helpful in contributing to non-proliferation.
    Mr. Thornberry. Let me ask one other question, Dr. Perry 
and Dr. Drell. Dr. Payne makes the point that we need a whole 
array of tools because many of us can't possibly know what will 
deter a leader or a terrorist in the future, and that whole 
array extends from, of course, non-nuclear all the way to 
nuclear deterrent.
    Do you agree or disagree with that notion that we need the 
whole array of weaponry to help prepare for contingencies we 
couldn't possibly know now?
    Dr. Perry. If I were setting the nuclear policy of the 
United States, which I am not, I would base it on the view that 
the greatest threat to the United States' nuclear weapons is 
nuclear terrorism, and act accordingly. That is further based 
on the belief that deterrence will be effective against nation 
states, and in that, I even include North Korea, Iran. I do not 
believe those two nations are seeking to commit suicide. They 
realize, that is, what would happen if they used nuclear 
weapons against us.
    I do not believe that deterrence would be effective against 
an al Qaeda group. So I would want to base my policies on the 
view that we have to deal with al Qaeda some other way.
    All my testimony was intended to describe ways of dealing 
with that problem. I do not believe deterrence, defense, any of 
those will be useful against al Qaeda.
    Mr. Thornberry. Thank you.
    Dr. Drell.
    Dr. Drell. I believe we do have to have a whole array of 
armaments, and I believe that--I would hope that the emphasis 
is on having the necessary intelligence, which I agree with Dr. 
Payne in emphasizing that as very important, and having a 
flexible and strong conventional force.
    I just think these nuclear weapons, as President Eisenhower 
said, are weapons of destruction of the enemy and suicide when 
you come to using them. And we want to try and meet our needs 
as much as we can with the whole array.
    By the way, when it comes to defense, when we are talking 
about trying to strengthen our ability to contain the 
terrorists, the biggest threat, I think what Bush and Putin 
said five years ago, also that we should be engaged in 
cooperative efforts at early warning and defense, is the right 
way to go. I think I am troubled at what seems to me to be an 
unnecessarily provocative way of trying to introduce it into 
Eastern Europe right now. I don't understand why that was not 
approached as a possible cooperative move because I can see 
that as the offenses get down and the weapons may proliferate, 
we have to have some sort of appropriate level of defense.
    Dr. Drell. In fact, against that low-level defense might 
even be effective.
    Ms. Tauscher. Thank you.
    Mr. Spratt from South Carolina for five minutes.
    Mr. Spratt. Thank you all for your excellent testimony. We 
appreciate you being here.
    Dr. Perry and Dr. Drell, you have each said that you look 
upon the gravest threat confronting us being the threat of 
nuclear terrorism. If, however, someone were to read our 
defense budget from start to finish with no outside knowledge 
of it, I doubt seriously that he would infer or discern that 
this is our greatest threat.
    Are we spending or putting forth the resources commensurate 
to the threat?
    Dr. Perry. In my judgment, the answer to that is no. There 
are many things we could be doing that would make it more 
effective against dealing with that threat. One in particular 
would be an expanded Nunn-Lugar effort expanded to include 
other nations and expanded to include dealing with the fissile 
material from commercial reactors, which is perhaps our 
greatest single danger today falling into the hands of 
terrorists.
    I might just add to that, Mr. Spratt, that resource funding 
is not enough to deal with this problem. We do need the 
cooperation with other nations. We have to have the cooperation 
of all nuclear nations at a minimum in this program. At the 
time I was secretary, we had splendid cooperation from Russia 
in this field. We could not have accomplished the dismantlement 
of the 4,000 or 5,000 nuclear weapons in the former Soviet 
Union without help from Russia.
    So we do need the cooperation of other nations in doing 
this.
    Dr. Drell. I totally agree.
    Once we have--if our problem is nuclear terrorism, the 
better intelligence we have, that is, again, something that 
requires cooperation, the better--the more effectively we 
extend Nunn-Lugar to the Global Threat Reduction Initiative 
(GTRI), the better we can proceed to get control of the 
material and the enrichment technology. These are the matters 
that concern me much more.
    The nuclear force at the moment, at the level we are, is 
really sized for only one other country, and that is Russia, 
which, as I say, we shield more than 90 percent of their 
weapons. To the extent that we can reduce and parallel--their 
numbers, by the way, Congressman, their numbers have gone down 
to smaller than our numbers now. They have begun the 
modernization of delivery systems, I personally don't feel that 
they are fielding a force that carries the threat that a 
communist Soviet Union presented to us.
    So I don't know the details of the budget to know where 
there are things that are there or not. But I certainly put my 
reliance in intelligence, conventional forces, a whole broad 
range of them for all sorts of time range of action and all 
levels.
    Mr. Spratt. Dr. Payne.
    Dr. Payne. I certainly agree with the points that Dr. Perry 
and Drell have made to keep materials out of the hands of 
terrorists. Nuclear materials, biological weapons, chemical 
weapons materials, I couldn't agree more with that.
    I guess the different point that I would put forward in 
this regard is that the deterrence of terrorists has been shown 
historically to be possible. Under President Jefferson, we were 
to, in fact, deter and coerce the pirates that were every bit 
as violent and every bit as eccentric as the terrorists we face 
today. And there are any number of historical examples since 
then. There are many of them.
    We have seen very effective deterrence and coercion of 
terrorists both by direct deterrence of the terrorists 
themselves and by deterrence of their state sponsors. That is 
where I think that, in a sense, we need to focus and that is 
understanding the terrorists well enough and the organizations 
well enough to understand those occasions where we can put 
deterrence pressure on them directly, and those occasions where 
we can add pressure on their state sponsors to try to prevent 
their actions.
    Ms. Tauscher. Thank you, Mr. Spratt.
    Do you have another question?
    Mr. Spratt. Neither one of you mentioned, I believe, the D-
5. Would you quickly give us your position on whether or not 
the D-5, the idea that the Administration has advanced of 
possibly converting the warhead of the D-5 into a conventional 
warhead and using it for conventional missions is a good idea?
    Dr. Drell. I am deeply troubled by the notion that a 
Trident force would be at sea with a mixture of nuclear and 
non-nuclear weapons. And therefore, there might be some 
ambiguity in the way a launch might be perceived, and there 
might even be a command failure in getting a conventional 
warhead or a nuclear warhead being launched confused.
    I am deeply troubled by the notion of a mixed deployment of 
nuclear and conventional.
    I think there is an argument to be made for--I presume you 
are talking about--D-5s with conventional warheads. There, I 
have just technical problems when you think of how limited the 
range of destruction is from a high explosive warhead and the 
requirement to have the location of the target which you are 
going at in a very timely fashion to have that so well fixed 
and accurate that you really are hitting what you think you 
are.
    I mean, there are technical problems that have to be solved 
which are non-trivial. I have no doctoral concern about having 
the ability to deliver force promptly, whether as the D-5 or 
having overseas-based drones or whatnot. There are options 
which haven't been thought through totally.
    But certainly a mixed deployment is something that makes me 
very nervous, not because I don't trust the U.S. Navy--I just 
don't trust the alert systems or the warning systems of the 
people who may see something coming and be a little less 
confident than we are that it is non-nuclear.
    Dr. Perry. Mr. Spratt, I focused my testimony on the 
nuclear terrorism attack, but in my written testimony, I do 
refer to what still lingers of the danger of an accidental war 
occurring. That probability is certainly lower than the ones 
during the Cold War, but it still exists because we and Russia 
still have our nuclear forces on high alert.
    That danger, I think, is aggravated by a Trident of mixed 
forces. I mean an accidental response on the part of the Soviet 
Union, by Russia, which might misestimate what is happening 
when we fire a Trident missile.
    Dr. Payne. May I add to that?
    Ms. Tauscher. You can quickly.
    Dr. Payne. There is a more recent discussion, I believe, 
the word is slugsome, which is the idea of putting a shorter 
range ballistic missiles on the SSGN, which would not be mixed 
boatloads of nuclear and conventional, would not mix the 
boatloads at all, in fact, in my view, it has a lot of 
advantages.
    So I think having Conventional Global Strike is very 
important and this is an initiative to get by those problems 
that were associated with conventional Trident. It seems to me 
like a very good idea.
    Ms. Tauscher. Thank you, Mr. Spratt.
    Mr. Franks from Arizona for five minutes.
    Mr. Franks. I would just like to start out by saying to 
this panel that I rarely have heard, since I have been in 
Congress, a more brilliant and obviously knowledgeable group of 
leaders on such a vital subject. It gives me hope, and I think 
that the chair is to be commended for inviting people of such 
acumen to brief us. It is--I am sure that part of it is--that 
one is always thrilled to hear their own convictions fall from 
others' lips, but the reality, I am sure, is that there is a 
diverse point of view philosophically on the panel, but the 
Nation is very blessed to have all of you with the obvious 
background and commitment to freedom that you have.
    With that said, Dr. Payne, I was particularly intrigued and 
compelled by your assertion that the American nuclear umbrella 
has many effects on nuclear proliferation; number one, by 
preventing other countries who are under that umbrella to feel 
they need to develop systems of their own. And I guess being a 
little biased here, relating to the nuclear missile defense 
systems of the Nation, do you not think there may be some 
connection with our missile defense capability also being able 
to deter certain countries from developing systems of their own 
simply because they think that they would be of little effect 
or lesser effect because of our missile defense capabilities? 
And if you would expand on that.
    Dr. Payne. I believe that there is at least the prospect 
that effective missile defenses can help dissuade countries 
from either going into the missile business or expand their 
missile capabilities if they anticipate that our defenses will 
be sufficiently effective to shut down the value of those 
missiles. The last thing they are going to want to do is launch 
a missile and have it disarmed by the United States. It simply 
proves their impotence.
    So I agree with you, and I believe that there is this 
chance for dissuasion or dissuasive effect from our strategic 
capabilities.
    With regard to the first part of the question, that is the 
relationship between our nuclear forces and extended nuclear 
deterrence and non-proliferation, this strikes me as one of the 
most unheralded values our nuclear arsenal can provide. If you 
look most recently of the statements that have been coming out 
of Japanese officials, former Japanese officials, South Korean 
officials, former South Korean officials, if you look at the 
discussion that has come out of--from friends of ours in the 
Middle East, as they anticipate the possibility of uranium 
nuclear weapons, what you see highlighted in every case is the 
value that they attribute to our extended nuclear deterrence to 
help them in their security needs as they look at the 
possibility of facing a nuclear foe.
    And they value our essentially taking that nuclear 
deterrent role so they can stay in their non-nuclear status. 
That strikes me as an extremely important value for our nuclear 
weapons, and as we think about the proposals to get out of the 
nuclear weapon business, we ought to think about that down side 
of doing that.
    Mr. Franks. Thank you. I couldn't agree with you more.
    Related to the European site, is it not also possible that 
the American credibility in proceeding with that site as 
planned also has some intrinsic relationship to some of the 
things that you are talking about?
    Dr. Payne. I believe there is no doubt that the commitment 
that it shows by the United States to our allies in Europe, 
particularly those in central Europe, the newer members of 
NATO, is important. It is important to those members of NATO as 
a political signal, as a symbol of our commitment to their 
security, yes.
    Mr. Franks. Dr. Perry, I think one of the strongest points 
made today was yours related to weapons systems falling into 
the hands of terrorists. Deterrence has no effect on them. 
Their intent is clear. We need to rob them of that capability. 
It occurs to me if we hadn't lost secrets from the Los Alamos 
Lab many, many, many decades ago, the Cold War itself could 
have been entirely avoided. And with that in mind, what would 
you say would be the most practical and critical consideration 
for this committee in preventing this loss or this 
proliferation problem in getting some type of weapon system 
getting into the hands of a terrorist organization. What are 
the things that we need to be looking at most closely?
    Dr. Perry. I think we are already doing adequately the 
protection of our nuclear weapons. We should also work with 
other countries like Russia to help them secure their nuclear 
arsenal. But we have done that in the past, and we can still do 
that in the future.
    But I think the greatest threat is fissile material falling 
into the hands of terrorist, but I generally believe that the 
danger of a nuclear weapons falling in the hands of a terrorist 
is relatively low. The high danger is that fissile material 
will fall into the hands of a terrorist. And here the greatest 
danger is not the Defense Department fissile material, which is 
pretty well protected, but the fissile material from nuclear 
reactors.
    So I think the single most important thing we can do is get 
an international program to deal with that problem. That 
involves much better safeguarding material and it involves 
persuading people who have reactors which use highly enriched 
uranium to change. It is an extensive program. It would require 
a lot of diplomacy including a lot of fund resources, but the 
payoff is quite high.
    Mr. Franks. Dr. Drell, I think Dr. Perry puts it very 
succinctly. The fissile material seems to be one of the most 
dangerous combinations out there with Iran moving in that 
direction pretty dramatically. I sometimes go back and forth 
wondering if Iran is the most dangerous threat to us or if 
perhaps a coup in Pakistan where they perhaps would immediately 
gain control of a dozen or so warheads would be more dangerous.
    I want to be careful not to say anything too sensitive 
here. But the fissile material, once that is gained, they don't 
need to have much more than a Boy Scout manual to create some 
kind of havoc. And what would you suggest is the most dangerous 
area? I keep trying to bring, as a committee, our focus on the 
most critical factor there, but as far as being able to prevent 
this fissile material from falling in the hands of terrorists, 
where do you think our greatest focus should be? I know it has 
to be comprehensive, but do you see any particular weak point 
that we should be considering?
    Dr. Drell. Well, on the diplomatic front, we are making an 
effort to build an international order to get control for the 
enrichment of uranium. You only need very low enrichment to 
power a reactor for civil power, which is what countries want. 
But once you have that technology, you are well on the way to 
being able to get high enrichment. The numbers are all 
unfavorable to us on that one.
    That is why it is so important what the United States 
Government's proposal is, what President Putin's proposal is, 
what the IAEA proposals are. There are different proposals but 
they are different in detail, not in goal, and that is to see 
to it that the technology for enrichment does not spread, and 
that is why we are deeply concerned properly with what Iran is 
doing now as with the gas centrifuges as it begins to enrich 
uranium.
    So what are the things we have to do? In Iran, we either 
are going to have to, by diplomatic means and engagement with 
our allies, convince them that that is something that would 
look very, very badly about their getting the capability of 
enriching uranium because with the enrichment and the weapons 
and missiles, there is going to be a terrible shakeup in the 
Middle East and the non-proliferation regime is going to go 
down the tubes.
    So I think that the most dangerous spot for me right now is 
what is going on right there with Iran and with the turmoil in 
Pakistan because you have the world's most dangerous arm's 
dealer A.Q. Khan sitting up there in Pakistan, obviously a very 
terrible person, doing things.
    So how with intelligence, how with diplomacy, and 
eventually after that, there will be some very tough political 
decisions of what we are going to have to do when we feel the 
danger becomes beyond something we can bear.
    I take momentarily, at least, great confidence--great hope 
that we are beginning to resolve the problem with North Korea. 
I think, finally, China has realized it is not in their 
interest to have North Korea nuclear with what it will do to 
South Korea and to Japan to perhaps Taiwan. And so I view their 
help and our very aggressive diplomacy there recapturing a 
lost, seemed like a lost cause, having some effect right now. 
So I am hopeful there.
    Let me take one minute to answer a previous remark.
    I am a physicist, and I have to say your remark about the 
spies of Los Alamos having something to do with the Soviet 
Union getting weapons quickly, I have to say respectfully, sir, 
I really disagree on that. The history will show that they had 
designed their own weapon. In fact, the Russian scientists are 
very proud to tell you that had they made their first test 
their design. It was more efficient than our first creation of 
a bomb, to copy that one and they could make it work.
    So I think the scientific talent and the scientific 
knowledge needed to make a primitive atomic bomb, either 
uranium gun-type one, which is Hiroshima, or the more 
sophisticated plutonium implosion one, which is Nagasaki. I am 
sorry that that technology is getting around the world. That is 
our danger now. It wasn't so much in the Cold War, but I don't 
think one can say that it had that much to do with the Soviet 
threat emerging when it did.
    Mr. Franks. Thank you, gentlemen. I think your lives give 
those in the future generation hope to live in a future 
environment.
    Ms. Tauscher. I appreciate your accolades in the beginning, 
and as chair, I take them to heart, but I do have to tell you 
that it is our staff that does the fabulous job, led by Bob 
DeGrasse and Rudy Barnes and Kari Bingen and my staff, that 
they are significantly the reason why we have such a fabulous 
panel here today.
    So I want to thank our staff, and I want to turn to Mr. 
Larsen who has been waiting patiently for seven minutes.
    Mr. Larsen. So I get three?
    Dr. Payne, I want to give you an opportunity to answer a 
question and because it has to do with something with the 
comment you made with regards to Mr. Franks' question about the 
prospect of missile defense being a dissuasion. I am going to 
ask this in a pretty loaded and pointed way. I thought I would 
be nice enough to let you know that.
    So what do you think is likely with the prospect of an 
Iranian nuclear weapon and the prospect that missile defense 
will dissuade an Iranian ballistic missile development?
    Dr. Payne. There is not enough data to give you 
possibilities or comparisons of those.
    Mr. Larsen. You did say there was a--you thought the 
prospect of--there was a prospect of missile defense being a 
dissuasion.
    Dr. Payne. I was relating that to the Iranian missile 
program, not necessarily to the Iranian nuclear program.
    Mr. Larsen. And I am talking about an Iranian nuclear 
weapon.
    So my point is, missile defense may have its values, but as 
we are discussing this in terms of our future nuclear policy. I 
have some questions, and perhaps this is one of these questions 
the Commission, should we get it finally approved in a final 
bill, can look into more clearly for us because I think there 
might be, at least in my mind, a divergence of those two 
prospects, actually there is a convergence of those prospects 
right now in my mind. The prospects of both happening seem to 
be going fully headlong regardless of what we are doing.
    So I hope that is a question that we can look at.
    A question as well for you--well, for Dr. Payne.
    Again, the credibility of the nuclear deterrent in the Cold 
War, I think, was based on a couple of things, and I want to 
get my history right, Dr. Drell, but not only that we had a 
nuclear deterrent that would work but a nuclear deterrent that 
we would use. Sort of two things.
    So given today's environment, say look at a Saudi Arabia or 
Japan and a South Korea, what circumstances would we need to 
keep it credible both in terms of that it works and that we 
would use it if in fact those are still the two conditions that 
the countries like Japan, Saudi Arabia and South Korea would 
like to stop themselves from becoming nuclear. And are those 
sufficient to keep them non-nuclear in your view. Are those 
conditions sufficient today to keep them non-nuclear?
    Dr. Payne. We can go back a little bit to the Cold War 
history. Because, in fact, what was supposed to provide 
adequate credibility to our threat was indeed the capability 
but not necessarily the certainty of its use. The credibility 
of the threat was, in fact, supposed to come from uncertainty 
of U.S. behavior--the fact that the U.S. might do something 
outlandish, might actually behave irrationally, the fog of war. 
The uncertainty associated with the U.S. nuclear arsenal was 
what was supposed to provide the credibility to the nuclear 
deterrent, particularly extended nuclear deterrence.
    But in that regard, I go back because the question really 
isn't for extended deterrence and the assurance that you have 
talked about with regard to allies. The question really isn't 
the extent of which we believe nuclear weapons are usable or 
not usable. That is an interesting question but it is a 
separate question.
    The question is, do our allies take confidence in assurance 
in our nuclear arsenal for the extension of deterrence to 
provide for their security? And you will get many different 
answers to that question, but it is the appropriate question to 
ask to our allies, to put to our allies.
    I had the opportunity to ask one of our senior officials 
from one of our allied countries what was it that provided 
their country with assurance with regard to our nuclear 
deterrent. This was not that long ago, and his response to me 
was, ``No one has ever asked me that question before.'' It 
seems to me that, getting exactly to your question, sir, this 
would be something that the Commission, for example, could help 
with and that would be identifying what is it about the nuclear 
arsenal that provides assurance to allies so that they are 
happy to remain or at least content to remain non-nuclear.
    Mr. Larsen. That is an important question. Is it sufficient 
enough because we don't want them to become nuclear, but is 
that--is that sufficient enough for them, the answer to the 
question, whatever that answer is, is that sufficient enough 
for them?
    Dr. Payne. The sufficiency is going to be determined by the 
different countries in their different security environments. 
What might be sufficient enough for Turkey might be a different 
question than what is sufficient for Japan or South Korea 
because they face very different contexts.
    Mr. Larsen. Dr. Drell, a question on the SORT Treaty, the 
Moscow Treaty and perhaps for Dr. Payne.
    What circumstances will it take--when we get to 2012--to 
increase the likelihood of an extension of the treaty or a 
replacement with lower numbers, and what circumstances would, 
forgive me for saying it this way, would blow the whole thing 
up?
    Dr. Drell. When we get to 2012 and before we get there--the 
SORT Treaty expires December 2009, and therefore unless we do 
something before then, we have no existing mechanism to verify 
reductions or any further progress in arm's control. That is 
why I think the proposal of the Madam Chairman is so important 
to say we have got to commit ourselves to saying are we 
interested in another extension or revision, if there need be 
one, so that we are in a position to talk about lower numbers.
    So that, in my mind, is the first thing.
    The next step is how are our relations going with Russia. I 
mean, we have to see when we get to 2012--the goal of the SORT 
Treaty--what the Russians are doing. I mean, they are having 
financial problems. They do have smaller forces now than we do. 
There are some articles saying we have a first strike 
capability against them. I don't believe that because I don't 
believe weapons work 100 percent the way they are predicted all 
the time. So I am not worried about that.
    But we have to be convinced that the start made five years 
ago in relation to these two countries excluding, for various 
reasons, which have become somewhat rocky, is how they are 
going. I don't think Russia is a nuclear threat right now to 
the extent that I worry about a first strike. But I think that 
unless we have settled our relations with Russia and we are 
back on a cooperative course, cooperating against the 
proliferation, meeting the regional problems, cooperating, I 
have to say in whatever we do by way of limited missile defense 
in Eastern Europe against what Iran or what they may do, that 
would help for me to predict what may happen then.
    I am just hoping that joining together with them as they 
were at Reykjavik in a common vision we could work toward would 
mean that we both realize that--and Russian analysts, General 
Dworman is one of them, the leading one, have said they don't 
need any more than a thousand weapons either on strategic 
alert. But we are talking about 4 or 5,000 now, when you put 
our arsenals together.
    So we have got some difficult verification issues to 
handle. Namely, how do we count the reserve or responsive 
forces not deployed? That is a tougher job. We haven't 
addressed that.
    And so a verification regime, a political regime--it all 
goes together.
    But I would hope that we would be able to, before 2012, 
realize I haven't heard a rational argument for 2,000 or 5,000 
warheads, and I hope the efforts of this committee and of the 
Congress as a whole to have an update, a badly needed update, 
on our strategic policy. Where do we want to go, what do we 
need?
    Extended deterrence is important. But when we are not 
talking about the Soviet Union, we are talking about other new 
countries, I think extended deterrence has a lot more to do 
with our conventional forces and our diplomacy to discourage 
and dissuade a country from going nuclear.
    Ms. Tauscher. Thank you, Mr. Larsen.
    Mr. Loebsack of Iowa for five minutes.
    Mr. Loebsack. Thank you, Madam Chair.
    Just a couple of quick questions, I guess a comment, too, 
about deterrence. Certainly we might want to look at Negal and 
figure out why we didn't succeed in that case.
    But Dr. Payne, you mentioned, if I got this correctly, that 
you think it is possible to deter terrorists and you mentioned 
deter and coerce, those are not the same thing obviously, when 
you were talking about the historical examples.
    How specifically would you suggest it is possible to deter 
terrorists, especially when many of us here probably and 
certainly out on the general public think that terrorists, in 
particular, those who are suicide bombers or whatever the case 
may be, I mean, it doesn't seem logical to think that we can 
deter them. How can we do that?
    Dr. Payne. Thank you.
    There is no singular formula for deterring terrorists. The 
question is going to be are we going to understand the 
terrorist organizations to know exactly if they are susceptible 
to deterrence and if so, how? The only thing I can suggest to 
you is that there are a number of very recent historical 
examples where terrorists were deterred and/or were coerced 
effectively.
    For example, the Soviet Union was able to coerce Hezbollah 
in 1985 to get the return of three Soviets who had been 
kidnapped in Lebanon. There has been a recent discussion in 
Russia with lots of memoirs written about how this was done, 
and it was clearly a deterrence and coercive action purposely 
taken by the KGB to get their citizens back who were being 
controlled and captured by Hezbollah, and they worked through 
Iran, for example. That was the indirect approach that they 
took. They worked indirectly through Iran with coercive 
measures, and they worked directly on the ground in Lebanon 
against Hezbollah, and they were successful.
    So what I can provide you with is examples of how it has 
been done in the past. What I can't do is give you a single 
formula that works with all terrorist organizations.
    Mr. Loebsack. I think examples of how it might be done 
would be helpful in that sense.
    You also mentioned something that deterrence would probably 
fail against Kim Jung Il and Ahmadinejad. Is that correct? Did 
you say that deterrence would likely fail against those two?
    Dr. Payne. No. What I said was as we look into the future 
given the uncertainties of deterrence, I think we can be 
confident that deterrence will fail some time in the future as 
it has failed in the past, whether it be specifically against 
North Korea or Iran is an open question.
    Mr. Loebsack. Can you think of what sort of examples or 
what conditions under which deterrence might fail?
    Dr. Payne. Again, there are an endless string of historic 
examples of why deterrence has failed in the past. We can 
categorize these and in some cases they simply don't believe 
the threat. There was the audience that we would hope to deter 
may see the capabilities, but they do not believe the threat 
would be implemented for some reason.
    Other cases in which the audience that we would hope to 
deter and others have hoped to deter, they see the capability, 
they actually believe the threat, but the action that we or 
others have asked them not to take is of such an overriding 
imperative that they are so cost-tolerant and so risk tolerant 
and that they are willing to go ahead anyway.
    In other cases, the leaders have seen the United States as 
essentially as a sloppy democracy that will not respond 
promptly or likely at all and therefore they have been willing 
to go ahead with severe provocations at us. They found out they 
were wrong, but they weren't deterred by our inherent 
capabilities. There are many historic examples of those types 
of processes taking place.
    Mr. Loebsack. Those are my only questions.
    Ms. Tauscher. Dr. Drell and Dr. Perry and Dr. Payne, I have 
a homework assignment for you because I want to have--obviously 
our votes are not as predicted, so we are going to continue and 
hopefully if we get called, we will conclude the hearing.
    But the idea of some kind of negotiation to have a follow-
on START Treaty. If you could, all three of you for the record, 
if you don't mind, respond to us at your leisure.
    What kind of framework would that take. What kind of 
opportunity--this is not an oral question, Dr. Drell, this is a 
written question for later because I want to go to Mr. 
Thornberry. But if you could give us in writing in the future 
in the next week or so what you think the framework of follow-
on negotiations would be for follow-on START. Do we need a 
bridge negotiation? There are two new Administrations coming: 
One in Russia and one in the United States. What do we do to 
get ourselves into those new Administrations, not find 
ourselves naked in 2009 without any parts of it because I think 
the key that you mentioned, Dr. Drell, is that the 
verifiability component of START enables other things like SORT 
to actually have legs and have teeth.
    Until you have those things, the rest of it is all very 
nice but frankly, it doesn't really matter.
    [The information referred to can be found in the Appendix 
beginning on page 71.]
    Dr. Drell. You want a framework for a follow-on START?
    Ms. Tauscher. Yes, thank you. And I am happy to turn to Mr. 
Thornberry for some follow-on questions.
    Mr. Thornberry. Let me approach a couple of narrow other 
subjects I don't think we have talked on yet.
    It has been argued that because we continue to have weapons 
designed for the Cold War, very large mega tonnage for each 
warhead, that our deterrent is not as credible as it might be 
otherwise because nobody thinks that we would actually use 
these very enormous weapons designed for so hardened Soviet 
silos in other situations.
    Briefly, do any of you all have comments on that?
    Dr. Drell. Briefly we don't have the big multi mega-ton 
weapons.
    Mr. Thornberry. Not as big as we once did.
    Dr. Drell. We have a whole range of weapons yields. What 
RRW is doing is at the moment, for example, the first RW1 which 
decision was made is reproducing an existing weapon but 
designing it so that purportedly it will be safer and more 
reliable. It doesn't add to the flexibility or anything at all.
    So we have a whole range. Our arsenal goes from low yields 
to high yields and obviously this is not the forum.
    Mr. Thornberry. I am just trying to get this basic 
question, is a range of yields a characteristic which makes 
sense for nuclear deterrent as we look ahead to these other 
scenarios beyond the Soviet Union.
    Dr. Drell. The answer is yes, and we have it. Could have 
more, but we have it, for that reason.
    Mr. Thornberry. Add Madam Chair, the other I will maybe ask 
my--another homework question because we have votes.
    Dr. Drell. We lose.
    Mr. Thornberry. Well, the other issue that has been 
approached to us, which I would be interested in your alls' 
view, is that we can reduce the numbers of weapons we have with 
the Reliable Replacement Warhead, that as we have weapons built 
largely in the 1970's and 1980's age, and you know, get older 
and older, we have to keep more of them because as they get 
older, we don't know what may happen to these machines that 
age.
    So the argument is if we could make them anew, then we--
without some of the low tolerances of previous weapon designs--
that we could be more assured and we could get by with few of 
them. And your alls' comments on that, I think the committee 
might also be interested in.
    [The information referred to can be found in the Appendix 
beginning on page 74.]
    Dr. Drell. Do you want comment now or----
    Mr. Thornberry. I was going to offer you a homework 
assignment since we are going to have to go run off to vote. I 
am trying to work with the chair in case Mr. Spratt had 
something else.
    Mr. Spratt. I think he can go ahead and submit it for the 
record.
    Ms. Tauscher. You all have doctorates. Something tells me 
you are good at homework.
    Dr. Drell. So is the instruction to answer it right now?
    Ms. Tauscher. No. It is a homework session.
    Because you have been so fabulous in sharing with us your 
expertise, I think Mr. Franks from Arizona shares all of our 
opinions. Each of you is enormously talented, and this country 
is very blessed and the American people are blessed by your 
expertise, and this committee is certainly enriched by the fact 
that you are so willing to come and share that expertise with 
us, and we would hope that you will come back and certainly as 
time develops and we get our commission up and running, if you 
could continue to advise us, we would really appreciate it, and 
thank you so much for being here.
    And the hearing is adjourned.
    [Whereupon, at 3:30 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             July 18, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 18, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7955.028
    
    [GRAPHIC] [TIFF OMITTED] T7955.029
    
    [GRAPHIC] [TIFF OMITTED] T7955.030
    
    [GRAPHIC] [TIFF OMITTED] T7955.031
    
    [GRAPHIC] [TIFF OMITTED] T7955.032
    
    [GRAPHIC] [TIFF OMITTED] T7955.033
    
    [GRAPHIC] [TIFF OMITTED] T7955.034
    
    [GRAPHIC] [TIFF OMITTED] T7955.001
    
    [GRAPHIC] [TIFF OMITTED] T7955.002
    
    [GRAPHIC] [TIFF OMITTED] T7955.003
    
    [GRAPHIC] [TIFF OMITTED] T7955.004
    
    [GRAPHIC] [TIFF OMITTED] T7955.005
    
    [GRAPHIC] [TIFF OMITTED] T7955.006
    
    [GRAPHIC] [TIFF OMITTED] T7955.007
    
    [GRAPHIC] [TIFF OMITTED] T7955.008
    
    [GRAPHIC] [TIFF OMITTED] T7955.009
    
    [GRAPHIC] [TIFF OMITTED] T7955.010
    
    [GRAPHIC] [TIFF OMITTED] T7955.011
    
    [GRAPHIC] [TIFF OMITTED] T7955.012
    
    [GRAPHIC] [TIFF OMITTED] T7955.013
    
    [GRAPHIC] [TIFF OMITTED] T7955.014
    
    [GRAPHIC] [TIFF OMITTED] T7955.015
    
    [GRAPHIC] [TIFF OMITTED] T7955.016
    
    [GRAPHIC] [TIFF OMITTED] T7955.017
    
    [GRAPHIC] [TIFF OMITTED] T7955.018
    
    [GRAPHIC] [TIFF OMITTED] T7955.019
    
    [GRAPHIC] [TIFF OMITTED] T7955.020
    
    [GRAPHIC] [TIFF OMITTED] T7955.021
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 18, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7955.022
    
    [GRAPHIC] [TIFF OMITTED] T7955.023
    
    [GRAPHIC] [TIFF OMITTED] T7955.024
    
    [GRAPHIC] [TIFF OMITTED] T7955.025
    
    [GRAPHIC] [TIFF OMITTED] T7955.026
    
    [GRAPHIC] [TIFF OMITTED] T7955.027
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             July 18, 2007

=======================================================================

      
                  QUESTIONS SUBMITTED BY MS. TAUSCHER

    Ms. Tauscher. With substantial advances in conventional munitions, 
why should the U.S. need or want to rely on nuclear weapons to hold at 
risk enemy targets?
    Dr. Payne. With end of the Cold War, many thoughtful people 
understandably ask why the United States should continue to maintain 
nuclear weapons. What role do they serve? Couldn't we defeat most 
plausible adversaries with our conventional forces alone?
    To address those questions requires that we examine the multiple 
roles served by nuclear weapons. We need to look beyond the military 
characteristics of U.S. nuclear weapons and address the broader 
spectrum of national defense goals they serve. These goals--deterrence, 
assurance, and dissuasion--reflect our core objectives of protecting 
the United States and allies, working to limit the proliferation of 
nuclear weapons and other weapons of mass destruction, and steering 
potential adversaries away from military challenges and competition.
    There should be no desire to rely on nuclear weapons per se; there 
is, however, a continuing need for nuclear weapons to support these 
overarching U.S. defense goals of deterrence, assurance, and 
dissuasion. None of these roles for nuclear weapons follows from a 
``war-fighting'' policy orientation, presumes the actual military 
employment of nuclear weapons, or entails a requirement to do so. The 
value of nuclear weapons for deterrence, assurance and dissuasion 
resides in their continued role as a withheld threat.
    First, we can examine deterrence. The value of effective deterrence 
did not end with the Cold War; it remains essential to national 
security and nuclear weapons remain essential to effective deterrence. 
By helping to prevent war and the need to use force, nuclear deterrence 
does not represent a disdainful ``trap'' as some commentators have 
claimed. They are an enormously valuable tool of deterrence that should 
be given up only after careful consideration. As Winston Churchill 
observed, ``Be careful above all things not to let go of the atomic 
weapon until you are sure and more than sure that other means of 
reserving peace are in your hands!''
    Strategic nuclear weapons that can threaten an adversary's valued 
targets from afar are, and are likely to remain essential for holding 
particularly well-protected targets at risk for deterrence purposes; 
these targets are, for all practical purposes, invulnerable to non-
nuclear threats and are likely to remain so for the foreseeable future. 
The potential importance to effective deterrence of the U.S. capability 
to hold these types of targets at risk from afar is suggested by the 
attention and resources some adversaries devote to protecting and 
shielding them. Adversaries unsurprisingly seek to protect what they 
value. And, as Secretary of Defense during the Carter Administration, 
Dr. Harold Brown emphasized when in office, U.S. deterrence threats 
should be capable of holding at risk those assets particularly valued 
by the adversary. In some important cases U.S. non-nuclear threats can 
not do so and can promise little deterrent effect. The invasion of an 
adversary's territory places an opponent's physical targets in the 
control of U.S. forces and renders many or all of those targets 
vulnerable to U.S. non-nuclear threats. In the context of a defeated 
opponent, however, the goal of deterring that opponent is unlikely to 
remain on the agenda, and invasion of an opponent's territory often is 
not an appropriate option.
    In addition, there is no doubt that some opponents who were not 
deterrable via U.S. non-nuclear threats were in fact deterred by what 
they interpreted to be nuclear threats. This deterrent effect is a 
matter of adversary perceptions, not our preferences: whatever we 
believe about the lethality of U.S. non-nuclear weapons and what should 
be their deterrent effect, and whatever our hopes might be about how 
adversaries should think and behave, the actual behavior of past 
adversaries has shown beyond doubt that there can be a profound 
difference between the deterring effects of nuclear and non-nuclear 
weapons. In some cases, given the adversary's views and the context, 
only nuclear deterrence works. To assert that nuclear weapons now are 
unimportant is to suggest either that deterrence no longer is 
important, or that the future will be much more benign than the past 
and we will not again confront such opponents armed with dangerous 
weapons. There is every reason to reject both propositions. U.S. policy 
with regard to nuclear weapons should not be based on optimistic hopes 
that so contrast with the actual past behavior of foes. Given past 
experience, the burden of proof is on those who now contend that 
nuclear deterrence no longer is necessary to preserve the peace.
    The question is not whether we ``want'' to rely on nuclear weapons 
for deterrence. It is whether we are willing to accept the risk of 
deterrence failure that would be introduced by our inability to 
threaten some of our adversaries' highly-valued targets that are 
essentially impervious to non-nuclear weapons and/or our inability to 
threaten nuclear escalation in response to a severe provocation. The 
risk of deterrence failure flowing from such inabilities can not be 
calculated with precision. Because multiple contemporary opponents 
possess nuclear and/or biological weapons, the consequences of 
deterrence failure could be measured in thousands to millions of U.S. 
and/or allied casualties. The risk of deterrence failure following from 
U.S. abandonment of nuclear capabilities may be low or high depending 
on the opponent and context. But even low-probability events deserve 
serious consideration if they have potentially severe consequences. The 
move to reliance on non-nuclear weapons to hold enemy targets at risk 
would carry the increased risk of deterrence failure, and the 
probability may not be low.
    Next, we can examine the role of nuclear weapons for the assurance 
of allies. Nuclear weapons are essential to the U.S. extended 
deterrent. This ``nuclear umbrella'' is central to the basic U.S. 
defense goal of assurance. This is not a trivial goal. The assurance 
provided to allies by U.S. security commitments, particularly including 
the U.S. nuclear umbrella, is key to the maintenance of U.S. alliance 
structures globally. It is part of the basic security considerations of 
countries such as Japan, South Korea and Turkey. The continuing role of 
U.S. nuclear weapons for this purpose may not be the preference of 
those in the United States who would prefer that the U.S. umbrella be 
non-nuclear. But what does or does not assure allies is not decided by 
U.S. commentators or U.S. political preferences, but by the allies 
themselves. The United States can decide if the assurance of allies is 
a worthy continuing goal, but only our allies can decide whether they 
are sufficiently assured. In this regard, available evidence points 
strongly to the fact that nuclear weapons remain critical to the 
assurance of key allies. For example, the recent responses by Japan and 
South Korea to the North Korean nuclear test of October 9, 2006 
demonstrated explicitly that U.S. nuclear weapons are viewed by allies 
as critical to their confidence in the U.S. extended deterrent. The 
discomfort felt by allies and friends in the Middle East given the 
prospect of Iranian nuclear weapons points in the same direction.
    We could decide that we would prefer to withdraw the nuclear 
umbrella and provide non-nuclear extended deterrence. But, with the 
nuclear proliferation of North Korea and the apparent Iranian 
aspirations for nuclear weapons, the response of key allies to the U.S. 
withdrawal of its nuclear extended deterrent coverage would create new 
and potentially severe problems, i.e., nuclear proliferation by U.S. 
friends and allies who would likely feel too vulnerable in the absence 
of U.S. extended nuclear deterrence. Japanese leaders have been 
explicit about the extreme security value they attach to the U.S. 
nuclear umbrella, and that Japan would be forced to reconsider its non-
nuclear status in the absence of the U.S. extended nuclear deterrent. 
Ironically, nuclear non-proliferation is tied closely to the U.S. 
preservation of its extended nuclear deterrent. This point is contrary 
to the typical contention that U.S. movement toward nuclear disarmament 
promotes nuclear non-proliferation. Precisely the reverse linkage may 
be more the reality: U.S. movement toward nuclear disarmament will 
unleash what some have called a ``cascade'' of nuclear proliferation 
among those countries which otherwise have felt themselves secure under 
the U.S. extended nuclear deterrent and therefore have chosen to remain 
non-nuclear. We should be extremely careful before moving in a 
direction that carries the risk of unleashing this ``cascade,'' such as 
deciding that U.S. nuclear weapons are unnecessary for assurance and 
moving toward a non-nuclear force structure.
    Next, we can consider the role of nuclear weapons for dissuasion. 
The goal of dissuasion involves discouraging opponents and potential 
opponents from militarily challenging the United States. Dissuasion 
does not involve the use of force, but having the force structure 
necessary to discourage opponents from anticipating success in 
competing militarily with the United States. A past example of 
dissuasion was the Soviet decision to scale back its deployment of 
ballistic missile defense in the 1960s because the Soviet leadership 
understood that the U.S. strategic offensive potential could overwhelm 
Soviet defenses. The maintenance of U.S. nuclear capabilities and a 
viable nuclear infrastructure may be necessary to discourage opponents 
from choosing to engage in a nuclear competition in arms.
    For example, the elimination or steep reduction of U.S. ICBMs would 
lower the bar considerably for an adversary who might, under such 
circumstances, consider realistic the possibility of achieving a 
counterforce strike option against the United States. Maintaining a set 
of diverse nuclear retaliatory capabilities serves to discourage the 
aspiration for any such option. Consequently, it may be critical for 
dissuasion purposes to maintain an adequate nuclear force structure, 
particularly because if the United States decides to give up deployed 
forces, it will certainly would not be able to recover those 
capabilities easily, inexpensively or quickly. As the Chinese, by their 
own statements, move toward greater interest in counterforce nuclear 
options, keeping the bar high for any possible success in that regard 
may be critical to future stability. Moving to a very small number of 
U.S. nuclear retaliatory capabilities could encourage the Chinese in 
the wrong direction.
    There are risks associated with retaining and modernizing the U.S. 
nuclear arsenal; there also would be risks in not doing so. Nuclear 
weapons may be critical for the deterrence of war and the dissuasion of 
military competition; and, they are critical to the assurance of allies 
who have indicated that they will considering moving toward their own 
nuclear capabilities if they conclude that the U.S. extended nuclear 
deterrent no longer is reliable. Advocates of the elimination of U.S. 
nuclear weapons tend to presume they know that adversaries will 
continue to be deterred by U.S. non-nuclear weapons, that allies will 
continue to be assured by the same, and that the U.S. ``good example'' 
of moving away from nuclear weapons would be emulated. Again, the 
burden of proof should be on those who make such claims, particularly 
when considerable available evidence points to the contrary.
    Ms. Tauscher. Is there a technical rationale for maintaining such a 
hedge? In your estimation, how likely are weapons in the current 
stockpile to develop problems that would render them unreliable and/or 
unsafe?
    Dr. Drell. I do not see a technical rationale for retaining the 
large hedge of several thousand warheads, or more, that are currently 
in the U.S. nuclear arsenal. The weapons in our current stockpile are 
confirmed to be safe and reliable by the Stockpile Stewardship Program 
and we have seen no significant evidence of their aging. With a Strong 
Stockpile Stewardship and Life Extension Program, that has been highly 
successful for more than a decade, we can be confident that, should any 
unforeseen or unanticipated problems arise, we will hear the warning 
bells. I believe it is important that we maintain the infrastructure, 
including a limited pit production capacity, so that we will be able to 
respond in a timely way should unanticipated problems arise, either on 
technical or on strategic/political grounds. I would like the United 
States to begin to move away from a large operationally deployed force 
toward one that is primarily a responsive, or reserve, force.
    Ms. Tauscher. If the U.S. were not to pursue the RRW program, do 
you have any concerns about the reliability of the existing stockpile? 
Over what time frame does your confidence extend?
    Dr. Drell. As long as our very successful Stockpile Stewardship and 
Life Extension Programs continue to be supported and executed to their 
current high professional standards, I have no serious concerns about 
the reliability of the existing stockpile. One of the concerns prior to 
a year ago was the lifetime of plutonium in the pits. As widely 
reported, that concern has been removed by findings by the weapon labs, 
as reviewed by JASON. Conservatively stated, my confidence extends well 
into the future, certainly beyond the next 20 years.
    An RRW program performing research as currently configured at the 
phase 2a level is a sensible component of the ongoing Stockpile 
Stewardship and Life Extension Programs. Before proceeding beyond the 
Livermore design effort for RW1, we should determine whether or not the 
envisaged changes in warhead design to improve safety, long-term 
reliability, and use control can be achieved and certified for 
operational deployment without requiring underground nuclear testing.
    Ms. Tauscher. What do you think would be the framework for 
negotiations for a follow-on to START (which expires in December, 
2009)?
    Dr. Drell. Follow-on negotiations to START should address three 
important goals:

      1.  Continuing to reduce substantially the size of nuclear 
forces, consistent with U.S. national security.

      2.  Removing deployed nuclear forces from prompt launch 
procedures (``hair-trigger alert'') and thereby reduce the danger of 
use of a nuclear weapon due to erroneous threat information, accident, 
or unauthorized action.

      3.  Ensuring that we have effective means to verify compliance 
with the commitments specified in the above two steps.

Goal 1:

    In my written testimony for the July 18 hearings, which I submitted 
for the record, I discussed issues arising when addressing this goal. 
Specifically, I suggested near-term reductions to 500 operationally 
deployed strategic warheads plus a responsive force of comparable size, 
en route to a total force exclusively of 500 responsive warheads.
    This issue calls for a review of the role of nuclear weapons in the 
post-cold war world, particularly to address how many deployed and 
reserve warheads and delivery systems are needed. Can we move to a 
force structure consisting exclusively of responsive forces that can be 
activated as required during a time of rising tension? Reductions would 
necessarily start with Russia and the U.S., who possess more than 90% 
of all nuclear weapons. What rate of reduction is practical, 
recognizing that to achieve significant reductions down to the force 
level proposed above, coordinated actions and negotiated agreements 
among all the nuclear powers will be required? What monitoring and 
verification tasks will need to be accomplished to support such 
reductions?

Goal 2:

    The focus here is on what actions can be taken to increase warning 
time and reduce the number of operationally deployed nuclear weapons 
that have procedures in place for a prompt launch. Possibilities that 
might be considered include changes in missile hardware requiring pre-
launch actions to enable an attack; separating warheads from delivery 
systems; software changes in the command structure that would require 
time to enable arming; or removing all nuclear-armed ballistic missiles 
and relying exclusively on long-range bombers for delivery systems. 
Such a ``zero ballistic missile'' option was considered during the 
Reagan administration.

Goal 3:

    The monitoring and verification requirements to ensure compliance 
with provisions described in Goals 1 and 2 are considerable. They 
require verifying numerical limits on warheads and launchers on both 
deployed and responsive (or reserve) forces as well as building 
confidence in command procedures. The follow-on to START should also 
incorporate cooperative measures that would strengthen the protection 
of all nuclear weapons against terrorists gaining access to them. These 
requirements are broader than those developed and implemented for the 
soon-to-expire START treaty.
    Ms. Tauscher. Under terms of the Strategic Offensive Reductions 
Treaty (SORT), the U.S. is currently on a path toward a nuclear weapons 
arsenal of between 1,700 and 2,200 ``operationally deployed'' strategic 
weapons.
    Do you see any risks to the U.S. moving lower than the SORT-
specified range? In your estimation, what is the proper range to aim 
for by the end of the next decade (2020)?
    Dr. Perry. [The information referred to was not available at the 
time of printing.]
    Ms. Tauscher. What should be our objective in negotiating a follow-
on to the START treaty after it expires in December 2009?
    Dr. Perry. [The information referred to was not available at the 
time of printing.]
    Ms. Tauscher. Since President George H.W. Bush's announcement 
regarding land-based and sea-based tactical nuclear weapons in 1991, 
neither the U.S. nor Russia has moved to significantly reduce its 
stocks of such non-strategic weapons.
    In your estimation, is there a remaining military utility for such 
weapons? Is there a diplomatic utility for them?
    Dr. Perry. [The information referred to was not available at the 
time of printing.]
    Ms. Tauscher. What steps would the U.S. need to take to assure NATO 
allies that tactical nuclear weapons are not required for meaningful 
security assurance from the U.S.?
    Dr. Perry. [The information referred to was not available at the 
time of printing.]
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. THORNBERRY


    Mr. Thornberry. Do you believe the U.S. can maintain a smaller 
nuclear arsenal if we proceed with replacing legacy weapons with newer, 
proven designs such as those envisioned in the Reliable Replacement 
Warhead (RRW) modernization program?
    Dr. Payne. Officials from the Departments of Defense and Energy 
have stated that one of the benefits of the RRW program would be a 
smaller total nuclear arsenal needed to support the planned nuclear 
force posture. The logic is compelling. Currently, the U.S. maintains 
an inventory of non-deployed warheads as reliability back-ups for aging 
legacy warheads. These older warheads were not designed with the 
expectation that they would be maintained indefinitely without nuclear 
testing. In contrast, RRWs are being designed with the goal of avoiding 
the need for nuclear testing. If some or all of the legacy warheads are 
replaced by RRWs, there would be less need for reliability back-up 
warheads. In addition, with the nuclear infrastructure operational and 
producing RRW warheads, any questions over reliability of deployed 
nuclear warheads would likely be resolved more quickly than with a 
partially active, less capable nuclear infrastructure. The RRW program 
would result in significant improvements in the ability of the 
infrastructure to fix identified problems. This would further reduce 
the dependence on non-deployed warheads and enable reductions in the 
overall nuclear stockpile.
    Mr. Thornberry. In your opinion, is it in the best interest of U.S. 
national security to continue maintaining a variety of nuclear weapons 
with various yields and uses in a post-Cold War era?
    Dr. Payne. Yes. For the purposes of deterring enemies and assuring 
our allies it is important to have nuclear weapons with variable 
yields. For example, having very low-yield and precise weapons in our 
arsenal should help to limit the opportunities for opponents to believe 
that they can discount U.S. deterrence threats because they understand 
the priority we place on avoiding unintended casualties. The potential 
for unintended civilian casualties can increase with higher-yield and/
or imprecise weapons; in the absence of low-yield, precise weapons, an 
opponent could attribute little or no credibility to U.S. deterrent 
threats given our proper concern about civilian casualties. This reason 
for having a variety of weapons and yields has nothing to do with a 
``warfighting'' nuclear policy. It is to strengthen the deterrent 
effect of our forces.
    Mr. Thornberry. Do you believe the U.S. can maintain a smaller 
nuclear arsenal if we proceed with replacing legacy weapons with newer, 
proven designs such as those envisioned in the Reliable Replacement 
Warhead (RRW) modernization program?
    Dr. Drell. I am on record as concluding that the U.S. can maintain 
a smaller nuclear arsenal with the legacy weapons that we have. The 
answer to the question of whether the RRW can help achieve this goal is 
yet to be established. Our existing legacy stockpile is safe, reliable, 
and shows no significant signs of aging. The study done earlier this 
year for the American Association for the Advancement of Sciences 
(AAAS), chaired by Dr. Bruce Tarter, Emeritus Director, Lawrence 
Livermore National Laboratory, affirms this same conclusion. The 
question that remains to be answered is this: Can a new warhead be 
designed that meets the principal goals of the RRW program to achieve 
enhanced safety, reliability, and use control, and that can be 
certified for deployment, without requiring underground nuclear 
explosive testing? I support research (Phase 2A as is currently being 
done) to see if it is possible to establish a scientific consensus 
confirming that this can be done. If the program confirms this 
possibility, and the costs are judged to be acceptable, even perhaps 
reducing the cost of maintaining the stockpile, then the answer to your 
question may be positive. I say ``may be'' because a decision to deploy 
new RRW warheads must carefully weigh its technical benefits against 
its potential impact on the strategic goals of the United States. These 
include, in particular, maintaining the cooperation of our allies and 
friends in enforcing a verifiable nuclear non-proliferation regime.
    Mr. Thornberry. In your opinion, is it in the best interest of U.S. 
national security to continue maintaining a variety of nuclear weapons 
with various yields and uses in a post-Cold War era?
    Dr. Drell. As long as it is in the U.S. strategic interest to have 
a nuclear arsenal, it is best to continue maintaining a variety of 
nuclear weapons in order to avoid common mode failures for the launch 
procedures, the delivery systems (bombers and missiles), and the 
warheads. In the post-Cold War world, I consider the need for the 
higher yield weapons to be greatly reduced relative to the lower yield 
ones.
    Mr. Thornberry. Do you believe the U.S. can maintain a smaller 
nuclear arsenal if we proceed with replacing legacy weapons with newer, 
proven designs such as those envisioned in the Reliable Replacement 
Warhead (RRW) modernization program?
    Dr. Perry. [The information referred to was not available at the 
time of printing.]
    Mr. Thornberry. In your opinion, is it in the best interest of U.S. 
national security to continue maintaining a variety of nuclear weapons 
with various yields and uses in a post-Cold War era?
    Dr. Perry. [The information referred to was not available at the 
time of printing.]

                                  <all>

</pre></body></html>
